 

IN THE SUPREME COURT OF THE UNITED STATES

 

WILLIAM BRADNER, PETITIONER
v.

UNITED STATES COURT OF APPEALS, RESPONDENT

PROOF OF SERVICE

 

I, Steven D. Jaeger, Esq., do swear or declare that on this date, the 08" day of
September, 2020, as required by Supreme Court Rule 29, I have served the enclosed
MOTION FOR LEAVE TO PROCEED IN FORMA PAUPERIS and PETITION FOR
A WRIT OF CERTIORARI on each party to the above proceeding or that party's
counsel, and on every other person required to be served, by depositing an envelope
containing the above documents in the United States mail properly addressed to
each of them and with first-class postage prepaid, and by electronically filing with
this Court.

The names and addresses of those served are as follows:

Solicitor General of the United States
Room 5616
Department of Justice

950 Pennsylvania Ave., N.W.
Washington, DC 20530-0001
Hon. Naya Bedini

Office of the U.S. Attorney
167 N. Main Street

Suite 800

Memphis, TN 38103

Hon. Debra Lynn Ireland
Office of the U.S. Attorney
167 N. Main Street

Suite 800

Memphis, TN 38103

I declare under penalty of perjury that the foregoing is true and correct.

Executed this 08" day of September, 2020.

 

23 Erlanger Road

Erlanger, Kentucky 41018

TELE: (859) 342-4500

EMAIL: sdjaeger@thejaegerfirm.com

Counsel for Petitioner
